16

AFFIDAVIT / SERVICE
I,
\vfy\AS
certify that on
December 14, 2020, before me appeared Marilynn
Thomason, who identified herself to me with her
Idaho photo identification/driver’s license as being
identified as Marilynn Thomason, who upon first
being sworn and deposed stated the information she
provided within this attached filing are true and
correct, under the penalty of perjury, from personal
knowledge, mot made to harass, delay nor hinder, or
for any improper purpose had been made of her own
free will and without being forced or placed under
duress to make her statement, and that she will
defend her statements to the fullest extent of the law.
That she had prepared this document under the Word
Perfect program, and the body of the brief is 2,721
words total, in century type set at 12 pt. print plus
stating that on December 14th, 2020 she had also
served these documents upon the following noted
persons/entities.
(seal)
~

: MY COMMISSION •

S

~

• EXPIRES 4-9-2024 ;

=

cc-

AM 1 A iM.—
1
Notary Public I
Residing
d a Win f lilAM
Commission Expires: 04 Qq 'Ifilj

Clerk of the Idaho Supreme Court
451 West State Street, Box 83720
Boise, Idaho 83720-0101
Aldridge-Pete
13125 W. Persimmon Lane, #150
Boise, Idaho 83713

17

cc:

Liberty Park Irrigation
Hyrum Erickson, Legal Counsel
25 North 2nd East
Rexburg, Idaho 83440
Idaho Attorney General
Lawrence G. Wasden
954 W. Jefferson St., Box 83720
Boise, Idaho 83720

